                                 CLOSEOUT FOR M9603007




- Sciences informed OIG that he had received a telephone call

-university.
                                                               in t



                         The program officer said the subject to1
                                                                                  h program in
                                                             in the Directorate for Biological

          The subject is a faculty member in the Department of

                              had been harassing him and several other scientists and that the
  student was selectively harassing Jewish professors. The student had, according to the
  program officer, accused the subject of data fraud and abuse of animals. The subject had
  wanted his institution to take the matters up under its misconduct in science regulation and
  felt that it was slow in doing so.

 OIG contacted the subject and, after providing him with a Privacy Act notice, requested
 information about this case. OIG learned that the student had not accused the subject of the
 allegations relayed by the program officer but had accused the subject of intellectual theft,
 and, was harassing him and other Jewish professors. The subject explained that the graduate
 student had attended th-                                 in the Department, -o               had
 recently received a Ph.D. degree, and had contacted him about a postdoctoral position. After
 the student had provided him with a written description of his interests and a curriculum vitae,
 the subject informed him that he did not have sufficient expertise in the subject's area of
 interest and suggested that he take an advanced training course offered by a private institution.
 The student applied for the course but was not accepted.

 The student began sending the subject letters and e-mail messages, and leaving telephone
 messages that generally threatened him. He (I) specifically accused the subject of receiving a
 copy of the student's application to the training course, and (2) accused the subject, the
 subject's wife or the subject's institution of using his research ideas and citing an abstract of
 his dissertation in a proposal submitted to NSF without the student's permission. The first
 accusation is not within NSF's jurisdiction and was not pursued further.

 With regard to the second, the subject told OIG that he had not submitted a proposal that cited
 the student's material. OIG reviewed the subject's PI History and found that the subject's most
 recent submission to NSF was in August 1994, 5 months after his initial contact with the
 student. OIG examined the August 1994 proposal and found that it was an extension of a
 research grant awarded prior to contact with the student. The August proposal clearly drew
 from the first and did not discuss the student's research or contain citations to the student's or
 the student's advisor's research.

 The subject provided OIG with copies of material the student had forwarded to him. A
 comparison of the subject's proposal and the student's materials showed that the subject's and
 student's research interests were similar. However, the subject's were more advanced and


                                        Page 1 of 2                              M96-07
                               CLOSEOUT FOR M9603007

detailed than the student's. The student stated that he wanted a postdoctoral position in the
subject's laboratory to gain proficiency in advanced research techniques. It does not appear
that the subject benefited from the materials forwarded by the student, rather it appears that
the student would have benefited by a research appointment in the subject's laboratory. OIG
concluded there was no substance to the allegation that the subject had taken research ideas
from the student or the subject had cited publications to the student's research.

OIG concluded that the student's allegations had no substance. This inquiry is closed and no
further action will be taken in this case.

cc:    Staff Scientist, Deputy AIG-Oversight, AIG Oversight, IG




                                     Page 2 of 2
